Tel: (818) 610-8800
Fax: (818) 610-3030
www.jmllaw.com

JOSEPH M. LOVRETOVICH
JARED W. BEILKE
NICHOLAS W. SARRIS
ERIC M. GRUZEN

LOS ANGELES
5855 TOPANGA CANYON BLVD.
SUITE 300
WOODLAND HILLS, CA 91367
TEL: (818) 610-8800
ORANGE COUNTY
2400 EAST KATELLA
SUITE 440
ANAHEIM, CA 92806
TEL: (714) 456-9176

JENNIFER A. LIPSKI
____________________________
BROOKE C. BELLAH

JML LAW

CATHRYN G. FUND

A PROFESSIONAL LAW CORPORATION

IRENE GHARAPET

RUTH GEWING
KARINA GODOY
CHRISTINA R. MANALO

SAN FRANCISCO
1 SANSOME STREET
SUITE 720
SAN FRANCISCO, CA 94104
TEL: (415) 692-3462

JAMES SCHMERBAUCH
ADAM J. SHERMAN
STEPHEN J. WIARD

October 17, 2019
Via Messenger/Hand Delivery
Supreme Court of the United States
ATTN: Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
RE:

Our Lady of Guadalupe School v. Agnes Morrissey-Berru, No. 19-267

MOTION TO EXTEND THE DEADLINE TO FILE OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI BY TEN (10) DAYS (UP TO AND INCLUDING OCT. 28, 2019)

Dear Clerk of the Supreme Court of the United States:
Pursuant to Supreme Court Rule 30.4, Respondent Agnes Morrissey-Berru
hereby applies for an extension of time of ten (10) days, up to and including
Monday, October 28, 2019, to file her Brief in Opposition to the Petition for Writ
of Certiorari. If this requested extension is not granted, then Respondent’s deadline
to file and serve her Brief in Opposition to the Petition for Writ of Certiorari will be
this Friday, October 18, 2019.
In support of this application for an extension of time to file the Brief in
Opposition to the Petition, Respondent submits the following specific reasons that
justify granting this request:

Our Lady Of Guadalupe Catholic School v. Agnes Morrissey-Berru (No. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Opposition to Petition for Writ
1. Respondent’s Counsel previously requested, and was granted, an 18day extension to file her Opposition to the Petition.
On September 26, 2019, Respondent’s Counsel from JML Law, A.P.L.C.
requested an eighteen (18) day extension to file Respondent’s Brief in Opposition to
the Petition for Writ of Certiorari. The grounds for that initial extension were that
Respondent’s Counsel was awaiting admission to the Bar of the United States
Supreme Court and would not be admitted in time to file the Brief in Opposition to
the Petition by the deadline, September 30, 2019, as well as because the attorney
who had handled and argued the underlying matter in district court and in the
Ninth Circuit Court of Appeals had recently departed from the firm and
Respondent’s Counsel (Jennifer A. Lipski) was in the process of reviewing the
relevant records and the pertinent case law.
The clerk graciously granted Respondent’s requested extension, thereby
making October 18, 2019, the new (and current) deadline to file and serve
Respondent’s Opposition to the Petition for Writ of Certiorari.
2. Respondent Counsel’s firm has been experiencing a server outage
which is not expected to be resolved by tomorrow, and the server
outage has prevented access to all of the firm’s case files, including
the draft of Respondent’s Opposition to the Petition.
Respondent’s Counsel’s firm, JML Law, APLC, uses a third-party case
management software platform called “TrialWorks,” which is a database that
houses all of the firm’s case files, and that database is operated on a remote server
that is managed by TrialWorks Hosted Services. (See, https://www.trialworks.com)
On Sunday morning, October 13, 2019, TrialWorks notified its customers,
including Respondent’s Counsel, that it was experiencing a “hosting outage” at its
data center. (See attached emails.) The October 13th email from TrialWorks did not
indicate the severity or anticipated length of the service outage. On October 14,

2

Our Lady Of Guadalupe Catholic School v. Agnes Morrissey-Berru (No. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Opposition to Petition for Writ

2019, Trial Works notified its customers that the hosting outage was caused by a
ransomware incident. (Id.) As a result, TrialWorks indicated that in order to resolve
the security threat, it must quarantine all data and completely restrict access to its
customers. On October 15, 2019, TrialWorks provided an “update” which still had
no estimated date as to when the system would be restored and accessible to its
customers, but merely indicated that it would continue to work through the night
with its data security consultants to bring the system back online in full as soon as
possible. (See attached emails.)
On October 16, 2019, TrialWorks sent a further “update” via email, but still
provided no estimated date as to when its customers would be able to access their
databases and case files. By end of the day on October 16, 2019, TrialWorks stated
it was continuing to work around the clock but that its Cybersecurity experts
cautioned that TrialWorks not provide access to customers until all of the
restoration is complete. (Id.) In that email, TrialWorks warned: “At this time we do
not expect that our hosting environment will be fully operational tomorrow.” (Id.)
In speaking with one of the TrialWorks representatives by phone on October 16,
2019, it sounds as though none of TrialWorks’ customers will have their databases
restored and accessible by the end of this week, and possibly may still not have
access by early next week.
JML Law, APLC has been extremely impacted as a result of the cyber attack
and TrialWorks’ inability to promptly restore its servers and customers’ databases.
Respondent’s Counsel is locked out of all of the firm’s case files and documents, and
does not know how many more days it will take TrialWorks to restore the files and
provide Respondent’s Counsel with access to its TrialWorks database. But, without
access to those files, Respondent’s Counsel has not been able to access the most

3

Our Lady Of Guadalupe Catholic School v. Agnes Morrissey-Berru (No. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Opposition to Petition for Writ

recent and near-finalized version of the Opposition Brief, and does not know when
she will gain access to that draft of the Opposition.
In an effort to remedy the situation and meet the current filing deadline
(October 18, 2019), Respondent’s Counsel, Jennifer A. Lipski, has been manually
retyping the Opposition using the printed early draft, however, she does not have
access to the most recent draft and will likely not be able to recount all of the
significant changes and additions which she made over the course of the last two
weeks.

Once Respondent’s Counsel regains access to the firm’s TrialWorks

database, it should not take more than a day or two for her to finalize that draft and
arrange for 40+ booklet-style Opposition Briefs to be printed, filed, and served.
3. Respondent’s Counsel is out of town for a legal conference between
October 17, 2019 to October 19, 2019.
Respondent’s Counsel is flying to San Jose, California today to attend the 32 nd
Annual Employment Law Conference hosted by the California Employment
Lawyers Association (CELA). The duration of the legal conference is from October
17, 2019 to October 19, 2019. Respondent’s Counsel did not believe that attendance
of this legal conference would interfere with the filing of the Brief in Opposition to
the Petition because as of the end of last week, the Opposition was near-finalized
and Respondent’s Counsel could not have foreseen that her firm would be locked out
of all of their case files and documents, and would not regain access to those files by
the end of this week.

Therefore, an additional ten (10) days is essential for

Respondent’s Counsel to adequately finalize a complete, accurate, and concise Brief
in Opposition to the Petition in order to best aid the Court with determining the
appropriate outcome on the Petition.

4

Our Lady Of Guadalupe Catholic School v. Agnes Morrissey-Berru (No. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Opposition to Petition for Writ
4. The amount of time requested for extending the filing and service
deadline for the Brief in Opposition to the Petition is only 10 days.
Although a Petitioner has 90 days to prepare, file, and serve a Petition for
Writ of Certiorari, a Respondent only has 30 days from when the case is placed on
the Court’s docket to file a Brief in Opposition to the Petition. Petitioner in this case
also requested and was granted a 30-day extension to file its Petition.
Respondent has thus far obtained one 18-day extension to file her Brief in
Opposition to the Petition, and is now only seeking an additional 10 days to file and
serve her Opposition to the Petition. If this request for a 10-day extension is
granted, the amount of time that Respondent’s deadline has been extended will still
be less than that granted to Petitioner (28 days for Respondent versus 30 days for
Petitioner). Such a brief extension is reasonable and not prejudicial to any party.
Therefore, for the forgoing reasons, Respondent respectfully
requests that the Clerk grant this application for an extension of 10
additional days, up to and including October 28, 2019, to file and serve
Respondent’s Brief in Opposition to the Petition for Writ of Certiorari,
which Brief in Opposition is otherwise due tomorrow, October 18, 2019.
Dated:

October 17, 2019

Respectfully submitted,
/s/ Jennifer A. Lipski
.
JENNIFER A. LIPSKI, ESQ.
JML LAW, A.P.L.C.
5855 Topanga Canyon Blvd., Suite 300
Woodland Hills, California 91367
(818) 610-8800
jennifer@jmllaw.com
Counsel for Applicant,
Respondent Agnes Morrissey-Berru

5

Jennifer Lipski
From:
Sent:
To:
Subject:

TrialWorks Hosting Service <no-reply@trialworks.com>
Sunday, October 13, 2019 9:25 AM
Jennifer Lipski
TrialWorks Hosting - Service Outage 10/13

Hosting Service Outage
We are currently experiencing a hosting outage at our data center. Our team is
working on this issue. We will continue to communicate as we uncover additional
information.
In the meantime, please access your email using the web browser at
mail.office365.com for Office 365 users and gmail.com for G Suite users.
TrialWorks Support is available
M-F 8:30 am-5:30 pm EST
support@trialworks.com | Tel: 305.357.6500
TrialWorks has initiated After-Hours Emergency Support (Option
5) to our Telephone Automated Attendant. Any customer with an
emergency outage outside of our regular support hours should
use this option.

FOLLOW US

Visit our website

TrialWorks Hosting Services | 1550 Madruga Avenue, Suite 508, Coral Gables, FL 33146 (305) 3576500
Unsubscribe jennifer@jmllaw.com

1

Jennifer Lipski
From:
Sent:
To:
Subject:

TrialWorks Hosting Service <no-reply@trialworks.com>
Monday, October 14, 2019 4:30 PM
Jennifer Lipski
TrialWorks Hosting - Outage Update: Monday Evening, 10/14

Hosting Service Outage Update
Thank you for your continued patience as we have worked tirelessly to restore
access to your data following the ransomware incident TrialWorks experienced.
As we work around-the-clock to restore system access, we are partnering with
multiple top cyber security firms to help ensure that the security incident has been
remediated. Once the incident has been resolved and our systems are secure, we
will focus on restoring customer access. This process, which we expect to begin
later this evening, will require us to methodically bring systems back online during
the week so customers may have limited access during that time. We expect that
access to our systems will not be available tomorrow.
If you have any questions, the best way to reach us is via email at:
support@trialworks.com
Your email may be accessed using the web browser at mail.office365.com for
Office 365 users and gmail.com for G Suite users.
TrialWorks Support is available
M-F 8:30 am-5:30 pm EST
support@trialworks.com | Tel: 305.357.6500
TrialWorks has initiated After-Hours Emergency Support (Option
5) to our Telephone Automated Attendant. Any customer with an
emergency outage outside of our regular support hours should
use this option.

FOLLOW US

1

Jennifer Lipski
From:
Sent:
To:
Subject:

TrialWorks Hosting Service <no-reply@trialworks.com>
Tuesday, October 15, 2019 4:44 PM
Jennifer Lipski
TrialWorks Hosting - Outage Update: Tuesday Evening, 10/15

Hosting Service Outage Update
We can confirm that the core remediation efforts are complete. Our team made
significant progress throughout the day cleaning and removing any remaining
system anomalies and are actively decrypting and restoring data as we
speak. Our leadership team will continue working through the night with our data
security consultants to bring the system back online in full as soon as possible.
We are implementing a methodical process to ensure systems and data are
restored in a secure manner – which is a taxing but necessary process.
We will continue to provide updates as milestones are confirmed by our security
consultants and are deeply grateful for your understanding as we move quickly to
restore services. Tomorrow we will be sharing additional information on our efforts
to date along with details on our plan moving forward.
Your email may be accessed using the web browser at mail.office365.com for
Office 365 users and gmail.com for G Suite users.
If you have any questions, the best way to reach us is via email at:
support@trialworks.com.
TrialWorks Support is available
M-F 8:30 am-5:30 pm EST
support@trialworks.com | Tel: 305.357.6500
TrialWorks has initiated After-Hours Emergency Support (Option
5) to our Telephone Automated Attendant. Any customer with an
emergency outage outside of our regular support hours should
use this option.

FOLLOW US
1

Jennifer Lipski
From:
Sent:
To:
Subject:

TrialWorks Hosting Service <patrice@trialworks.com>
Wednesday, October 16, 2019 11:34 AM
Jennifer Lipski
TrialWorks Hosting - Outage Update: 10/16

Dear Jennifer Lipski,
As you are already aware, we are continuing to experience a system outage as a
result of being targeted by a recent cyber attack. I know that it is beyond
frustrating to be impacted by this incident and we deeply regret that you are
bearing the brunt of this disruption.
First, I want to assure you that our entire leadership team, myself
included, is working around the clock to get our hosted platform back to
full service in a secure and responsible manner.
I also know that actions speak louder than words – we have and continue to
make a number of investments to restore services as quickly as possible and to
do everything we can to help prevent such an attack from affecting our
customers in the future.
1. We have engaged teams of cyber security experts, from two leading firms,
to help us investigate and restore operations as quickly and safely as
possible.
2. Our Chief Technology Officer, Jim Garrett, is on board and working with our
external cyber security experts to restore our hosting environment.
3. Additionally, as our CEO, Ryan Pakter shared in his recent email to
customers, we have brought in an additional third-party to audit our recent
infrastructure modernization. While this is already in progress, we will
continue to update our defensive measures as best as we can to keep up
with the rapid pace at which cyber criminals evolve their tactics and
strategies.
Second, some of the feedback we have received to date is that you need
consistency and clarity on when updates will be provided and whether you should
expect to be live the following day to manage staffing considerations, etc.
Accordingly, we will provide you with an update each afternoon at 4:00 pm
detailing the progression of the restoration and whether we anticipate you being
live the following day. However, we will continue to work around the clock to
ensure that you are up as soon as possible. As appropriate, we will supplement
that communication with updates as milestones are confirmed.

1

We are not the first, nor will we be the last organization in our industry to be the
target of one of these attacks. However, we have learned from this experience
and are committed to expend all the resources required to both address this issue
head-on and mitigate the chance of a recurrence. The entire leadership team and
I are committed to redoubling our efforts to earn the trust you have invested in
our company.
Sincerely,
Patrice Gimenez
Chief Customer Advocate

FOLLOW US

Visit our website

TrialWorks Hosting Services | 1550 Madruga Avenue, Suite 508, Coral Gables, FL 33146 (305) 3576500
Unsubscribe jennifer@jmllaw.com
Update Profile | About Constant Contact
Sent by patrice@trialworks.com in collaboration with

Try email marketing for free today!

2

Jennifer Lipski
From:
Sent:
To:
Subject:

TrialWorks Hosting Service <no-reply@trialworks.com>
Wednesday, October 16, 2019 1:00 PM
Jennifer Lipski
TrialWorks Hosting - Service Outage 4pm Update: 10/16

Hosting Outage: 4pm Update
As committed to in this afternoon’s message from our Chief Customer Advocate,
we are providing a 4pm status update.
We continue to work around the clock and have restored meaningful portions of
our environment. In working with our Cybersecurity experts, they have cautioned
that we do not provide access to customers until all of the restoration is complete.
As a result, we will continue to double down to complete all restoration activities
as safely and effectively as possible.
At this time we do not expect that our hosting environment will be fully operational
tomorrow. We will communicate via email as milestones are completed.
Your email may be accessed using the web browser at mail.office365.com for
Office 365 users and gmail.com for G Suite users.
If you have any questions, the best way to reach us is via email at:
support@trialworks.com.
TrialWorks Support is available
M-F 8:30 am-5:30 pm EST
support@trialworks.com | Tel: 305.357.6500
TrialWorks has initiated After-Hours Emergency Support (Option
5) to our Telephone Automated Attendant. Any customer with an
emergency outage outside of our regular support hours should
use this option.

FOLLOW US

1

